BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Petition for Writ of
Certiorari in Paul Anthony Valderas v. City of
Lubbock, et al., were sent via Next Day Service to the
U.S. Supreme Court, and 3 copies were sent via Next
Day Service and e-mail to the following parties listed
below, this 16th day of August, 2019:
Jeffrey Clay Hartsell
City Attorneys Office for the City of Lubbock
1625 13th Street, Suite 205
Lubbock, TX 79401-0000
(806) 775-2222
jhartsell@my1ub bock. us

Counsel for Respondent City of Lubbock
David Leslie Kerby
[U.S. Mail]
Camie Wade
Thompson & Kerby Law Office
P.O. Box 65150
Lubbock, TX 79464-5150
806-793-7600
dkerby@ttlawyers.com
cwade@ttlawyers.com

Counsel for Respondent Billy Mitchell

1

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

' (800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive

Franklin Square

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

KERSHNER, J.D.

DANIEL A. DAILEY
Counsel of Record
Chief Litigation Counsel
KINGDOM LITIGATORS, INC.
A PUBLIC INTEREST LAW FIRM
3131 McKinney Avenue, Suite 600
Dallas, Texas 75204
Tel: 214-422-9350
E-Mail: ddailey@kingdomlitigators.com
Attorney for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 16, 2019.

1

Julie
rshner
Becker G llagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JOHN D. GALLAGHER
, t)

I '

Notary Public, State of Ohio
My Commission Expires
February 14, 2023

